           Smithsonian Institution
           Office of the Inspector General

          In Brief                     Administration of Relocation and Recruitment Payments
                                       Report Number A-07-04, September 28, 2007



Why We Did This Audit                    What We Found

During our audit of executive           The Smithsonian in many instances did not ensure proper reporting to the IRS
compensation at the Smithsonian,        of employee taxable income arising from relocation and recruitment payments.
we observed that the Smithsonian        In the 5-year period covered by our audit, the Smithsonian generally reported
had no consistent, Institution-wide     lump-sum payments to employees correctly on IRS W-2 forms. However,
method for processing or                when the Smithsonian reimbursed employees for moving expenses, or when it
documenting relocation or               paid third parties directly for temporary housing or other non-deductible
recruitment payments, and that          expenses, the Smithsonian generally did not report taxable income or other
central oversight of such payments      required information accurately to the IRS.
was lacking. In this audit, we
sought to assess if the Institution     For the period 2002 through 2006, the Smithsonian reported employee income
has adequate policies and               associated with these payments of approximately $1.2 million when, according
procedures to govern the granting       to the transactions we reviewed, it should have reported employee income of
and recording of relocation and         about $1.4 million. We identified a number of factors that contributed to the
recruitment payments; whether the       inaccurate processing of these transactions, including the Institution’s
Institution made payments in            decentralized organizational structure, weak guidance on proper processing
accordance with these policies and      procedures, and the lack of adequate training for data entry and reporting.
procedures; and whether the
Institution addressed all associated    We also found that the Smithsonian did not maintain required employee
tax liabilities.                        service agreements for relocation and recruitment payments. Service
                                        agreements spell out employees’ responsibility to repay relocation or
What We Recommended                     recruitment amounts if they leave the Smithsonian prior to serving a minimum
                                        period, such as one year. While we found instances where units followed up to
We made five recommendations to         recover payments from employees when they left the Smithsonian before
strengthen oversight of relocation      fulfilling the terms of their service agreements, we also identified cases where
and recruitment payments. We            management failed to recover payments from breached agreements. Examples
recommended that management             of cases we reviewed include:
amend policies and procedures,             A Smithsonian Business Ventures (SBV) executive was authorized moving
improve user training, report               and temporary living expenses of nearly $100,000 without signing a service
corrected information to the IRS,           agreement. SBV reimbursed the employee for temporary living expenses of
and maintain a central file of all          over $40,000. The executive left SBV within a year of his start date and SBV
approved service agreements in the          never required the employee to reimburse the Institution for any portion
Office of Human Resources.                  of the payments.
                                           Two Office of Protection Services employees received recruitment
Management concurred with the               payments of $5,000 each. Neither employee fulfilled the required six-
report’s findings and                       month terms of employment set out in their service agreements and
recommendations and proposed                neither reimbursed the Institution.
corrective actions that will resolve
all the recommendations.                For additional information or a copy of the full report, contact the Office of
                                        the Inspector General at (202) 633-7050 or visit http://www.si.edu/oig
Smithsonian reimbursed employees for moving expenses, or when it paid third
parties directly for temporary housing or other non-deductible expenses, the
Smithsonian generally did not report taxable income or other required information
arising from these payments accurately on W-2 forms. These problems were caused
by a decentralized organizational structure, weak procedures, and the lack of training
for data entry and reporting. We found that the Smithsonian made relocation and
recruitment payments using many different methods, including two different payroll
processing systems, purchase orders, and travel vouchers, and that management
could not accurately identify the total amount of the payments. As a result, during
the audit period the Smithsonian reported income of approximately $1.2 million of
such payments on employees’ W-2 forms when, according to the transactions we
reviewed, it should have reported approximately $1.4 million.

To standardize approvals of recruitment and relocation payments and to improve the
recording and reporting of these payments to the IRS, we recommended that the
Smithsonian strengthen policies, procedures, and user training, and that the
Institution cease offering moving expense reimbursements for new employees except
in limited circumstances.

BACKGROUND

As an initial matter, we would like to comment on terminology in this area, which
can be confusing. The Office of Personnel Management (OPM) defines payments to
new employees as recruitment incentives and payments to existing employees as
relocation incentives; the Federal Travel Regulation defines payments to both new
and transferred employees as relocation allowances. The Smithsonian calls the
payments relocation allowances or incentives if they are paid to federal employees,
and relocation reimbursements or bonuses if they are for trust employees.2 For
purposes of this audit, we will use the terms relocation payments to describe
reimbursements for existing employees and recruitment payments for incentives or
reimbursements for expenses for new employees.

The Smithsonian offers relocation and recruitment payments to attract employees to
specialized positions the Smithsonian is having trouble filling. We found that the
Smithsonian made payments ranging from $250 to over $105,000 to pay for move-
related expenses and to motivate candidates to join the Smithsonian. These payments
included temporary living expenses, moving expenses, closing costs for the purchase
of a new home, a cash advance, and a tuition deposit. In the paragraphs that follow,
we explain the Smithsonian’s methods for making these payments, federal and trust
regulations, IRS reporting requirements, and Smithsonian policies and procedures.


The Smithsonian makes three different types of relocation and recruitment

2
    Chief Financial Officer Bulletin No.10-007, June 22, 2007.



                                                     2
payments:
   • Lump-sum payments to employees;
   • Reimbursements to employees for actual moving expenses; and
   • Payments directly to vendors on behalf of employees for airline travel,
      moving household goods, temporary housing, and the like.

Smithsonian Payment Methods

The Smithsonian makes the three different types of relocation and recruitment
payments mentioned above using several different methods. The Smithsonian makes
lump-sum payments through the National Finance Center, which is the
Smithsonian’s primary payroll provider. The Smithsonian also has a separate
business operation called Smithsonian Business Ventures (SBV), which makes lump-
sum payments as well as expense reimbursements to its employees through a
different system, Automatic Data Processing (ADP). In addition, the Smithsonian
pays employee reimbursements for actual moving expenses using travel vouchers and
purchase orders. Further, the Smithsonian pays airlines, moving companies, and
temporary housing providers directly on behalf of employees using a central travel
card, purchase orders or through contracts with these vendors.

There are two different groups of rules and regulations that govern these transactions
for federal employees. The relevant statute authorizing these payments is 5 U.S.C. §
5753. OPM has issued regulations3 governing payments for employee recruitment
and relocation. In addition, the General Services Administration’s Federal Travel
                  4
Regulation (FTR) also provides guidance for travel-related payments. Both OPM and
FTR regulations require new employees who receive relocation or recruitment
payments to enter into a service agreement. Service agreements require new
employees to serve a minimum period and require repayment by the employees if
they fail to complete the agreed-upon period of service. Smithsonian directives
require employees who do not meet the terms of the agreement to repay the
Smithsonian, generally on a prorated basis. There are no provisions for the Chief
Executive Officer of SBV to waive this requirement.

OPM Regulations

OPM permits the use of incentive payments as a means for the government to attract
and retain well qualified applicants and employees. The incentives are recruitment
payments to attract new employees and relocation payments to encourage current
employees to relocate to another geographic location. These incentive payments are
taxable income, and employees may use these payments for any purpose including
paying their moving expenses.


3
    The statute uses the terms recruitment and relocation bonuses. The regulation is 5 C.F.R. §575.
4
    41 C.F.R. §302 subpart (a) applies to recruitment and subpart (b) applies to relocation payments.



                                                     3
According to OPM regulations, an agency that offers incentive payments must have
an incentive plan that includes the designation of officials with authority to review
and approve the payment of incentives; the categories of employees who are not
eligible to receive incentive payments; the required documentation for determining
that the position is difficult to fill; requirements for determining the amount of the
incentive; the payment methods (lump sum, installment) that may be authorized;
requirements governing service agreements; and documentation and recordkeeping
requirements. Regulations limit agencies’ incentive payments to up to 25 percent of
the employee’s base pay (including locality adjustments) unless agencies receive
OPM approval.5

Federal Travel Regulation

The FTR provides much more detailed guidance than the OPM regulations for
reimbursements to employees for actual moving expenses and more clearly defines
the types of acceptable travel expenses. If the agency is paying for moving expenses,
the agency must, at a minimum, pay the employee for transportation of the employee
and immediate family members, per diem for the employee only, and transportation
and temporary storage of household goods. The FTR requires employees to provide
receipts for claimed expenses. At its discretion, the agency may pay other moving
expenses. However, for new employees, the FTR forbids the agency from paying
expenses such as per diem for family members, cost of househunting trips, and
miscellaneous expense allowances.

In our opinion, implementation of the FTR requires specialized knowledge and
additional administrative support. Unit personnel entering the payment data
according to the FTR must accurately code these transactions in the accounting
system to ensure accurate reporting to the IRS. Additional administrative support
such as specialized training for unit and accounting personnel is needed to ensure
these employees identify and report these transactions, without error, to the IRS.

IRS Reporting Requirements

Employers must report to the IRS certain relocation and recruitment payments made
to employees or on their behalf. Specifically, the IRS regulations require that lump-
sum payments and payments of non-deductible expenses to employees or third-
parties be reported as additional income in Boxes 1, 3, and 5 of the employee’s Form
W-2. Employers also must report, for informational purposes, reimbursements such
as for the costs of moving household goods and traveling from the old to the new
home, in Box 12 of Form W-2.6 The IRS does not require employers to report
payments paid directly to third-party vendors, such as moving companies, because

5
  An agency may raise the cap to amounts higher than 25 percent of annual base pay if there is a critical
agency need and the agency receives OPM approval.
6
  We believe this reporting requirement was designed to prevent employees from claiming a deduction
for expenses that the employer reimbursed.



                                                   4
the employees never received the monies and these expenses would have been
deductible if paid by the employee. Diagram 1 in Appendix B illustrates the different
types of relocation and recruitment expenses and tax reporting requirements, and
Diagram 2 in Appendix B displays the IRS Form W-2, Wage and Tax Statement.

Smithsonian Policies and Procedures

The Smithsonian established several policies and procedures that were intended to
mirror the federal rules for recruitment and relocation payments. These are
contained in Smithsonian Directives, a Travel Handbook, and other policies to
address federal and trust employee relocation and recruitment payments. For federal
employees, the Smithsonian issued Smithsonian Directive (SD) 212, a Federal
Personnel Handbook. The Smithsonian also issued a Travel Handbook, which is
similar to the FTR, and SD 312, which covers Smithsonian travel policy for both
federal and trust employees. The Smithsonian has implemented an incentive plan for
federal employees that follows the guidance of the OPM regulations and specifies that
the Unit Directors are the approving officials.

The Smithsonian issued SD 213, Trust Employees Personnel Handbook, which
provides a definition of recruitment and relocation for trust employees. However,
neither SD 213, the Travel Handbook, nor SD 312 were intended to explain how to
make recruitment and relocation payments to trust employees. There were no
procedures which explained how these payments should be made. Nor does this
guidance clearly indicate the extent to which trust employees were expected to follow
federal rules. We also noted that the Smithsonian had not implemented incentive
plans for trust employees.

In June 2007, the Smithsonian amended its guidance for reimbursing employee
relocation costs. The Smithsonian will use GSA-approved relocation management
vendors to assist with relocation reimbursements to ensure that employee payments
receive the proper tax treatment and that relocation expenses and reimbursements
are properly documented and recorded. The guidance describes eligibility for federal
and trust employees, requires certain authorizations and approvals, and requires
signed service agreements for all job candidates to be considered eligible for
relocation reimbursements. The interim guidance does not prescribe proper
transaction coding to ensure complete and accurate IRS reporting.




                                          5
RESULTS OF AUDIT

The Smithsonian Did Not Accurately Report Taxable Income for Employee
Relocation and Recruitment Payments to the IRS
                                                          7
The Smithsonian expended at least $1.9 million in employee relocation and
recruitment payments from calendar years 2002 to 2006, $971,346 to 166 federal
employees and $936,375 to 80 trust employees. Of the $1.9 million we identified,
approximately $1.4 million should have been reported to the IRS as income to
employees. We found that generally lump-sum payments and SBV reimbursements
were properly reported to the IRS. However, the Smithsonian only reported about
$1.2 million, or 86 percent, of the $1.4 million to the IRS. Based on our review, we
concluded that the Smithsonian did not properly report $184,275 as income on
employees’ W-2 forms.

Examples of payments that the Smithsonian failed to report as taxable income to
employees included:

     •   In 2002, the Smithsonian reimbursed an executive over $19,000 in temporary
         living expenses and it reimbursed another executive over $14,000 in expenses
         for temporary housing, pre-move, and other expenses.
     •   In 2003, the Smithsonian reimbursed an executive over $10,000 for pre-and
         post- move trips and temporary living expenses and reimbursed a different
         executive over $10,000 for expenses related to closing costs on a new home.
     •   In 2004, the Smithsonian paid an executive over $11,000 for temporary living
         expenses.
     •   In 2005, the Smithsonian reimbursed an executive $1,000 for his child’s
         tuition deposit.
     •   In 2006, the Smithsonian gave an executive a $5,000 cash advance for move-
         related expenses.

Table 1 compares the taxable income that should have been reported on employees’
W-2 forms to the amounts that were reported by calendar year for the audit period.

    Table 1: Reporting of Taxable Income For Relocation and Recruitment Payments
                                                                 8
                      in Boxes 1, 3, and 5 of IRS Form W-2s ($’s)

                  2002            2003           2004           2005            2006           Total
Expected        141,325         72,176         67,322         176,599         89,940         547,362
Reported         85,571          4,000         22,470         173,975         77,071         363,087
Difference      (55,754)       (68,176)       (44,852)         (2,624)       (12,869)       (184,275)

7
  We were unable to verify the accuracy of this total because of inconsistent transaction coding in the
Smithsonian’s accounting systems, among other issues we describe in the report.
8
  This table excludes lump-sum payments.



                                                    6
Of the total amount that was not reported as taxable income to employees
($184,275), the Smithsonian paid $59,303 directly to third-party vendors for
temporary housing expenses. This amount was made up of payments for two
individuals: $58,194 for temporary housing of one executive in 2003 and 2004, and
$1,109 for temporary housing of another executive in 2003.

In addition to the failure to report all the taxable income from relocation and
recruitment payments, we also found that the Smithsonian did not report other types
of reimbursements not considered income to the employee. These included
reimbursements for moving expenses, lodging while traveling, and shipping of
household goods. Under IRS rules, such amounts must be reported for informational
purposes in Box 12 of the Form W-2. These reimbursements totaled $104,745 for our
audit period, and the Smithsonian reported only $14,354. 9 These types of expenses, if
paid by the employee, would have been deductible expenses for IRS tax purposes. In
our opinion, employer reporting of these payments is important to prevent
employees from claiming a deduction for expenses that the employer already
reimbursed.

Overall, based on the records available, the Smithsonian had not reported relocation
or recruitment payments correctly for 54 employees: 21 employees had incomplete
data reported in both Box 1 and Box 12 on the IRS Form W-2s, 11 employees had
incomplete data only in Box 1, and 22 employees had incomplete data only in Box
12.

There are a number of causes for the weaknesses in the Institution’s processing of
these transactions, including a decentralized organizational structure, weak
procedures, and the lack of adequate training for data entry and reporting.

       •   The Secretary delegated the authority for approval of relocation and
           recruitment payments to the units. Smithsonian units are dispersed
           geographically and organizationally, located primarily in Washington, D.C.,
           Massachusetts, and Panama. The units are also organizationally divided
           between scientific museums and research facilities, art museums, history
           museums, and administrative functions. Consequently, responsibility for
           approving these payments was fragmented.

           This fragmentation enabled the units to enter recruitment and relocation
           payment data by a variety of methods without close oversight by the Office of
           the Comptroller (OC) or the Office of Human Resources (OHR). In some
           cases, unit directors (who may be the beneficiaries of these payments)
           authorized administrative and accounting personnel to make payments
           through travel vouchers and purchase orders without ensuring that the

9
    SBV could not provide evidence of how these transactions were reported to the IRS in 2002.



                                                    7
         payments were properly coded. The units also entered payment data into the
         contracting system, and there was no process for reviewing this data to
         identify payments which would need to be reported to the IRS.

     •   The Smithsonian established guidelines for recording relocation and
         recruitment expenses in 1996 (SD 212 and 213), but did not provide specific
         guidance on procedures that should be used to process the types of payments
         which are required to be reported to IRS on employees’ W-2 forms.
         Management had not updated these directives to reflect payments made
         through new systems such as the travel manager system that was installed in
         2001, or the Enterprise Resource Planning (ERP) system that was installed in
         2003.

         The Smithsonian’s policies also did not establish which system(s) the units
         were supposed to use when they recorded relocation and recruitment
         payments. As a result, Smithsonian personnel used various systems to record
         relocation and recruitment payments. In addition to making payments
         through NFC and the Travel Manager module of the ERP, the units also paid
         relocation expenses through the ERP purchase order and contracting systems.

     •   The Smithsonian did not ensure that unit managers and administrative
         personnel were adequately trained in how to process relocation and
         recruitment payments. Generally, written materials were not specific enough
         for processing these types of transactions. Consequently, in many cases unit
         personnel treated these transactions as if they were regular business travel
         expenses. We found the units were entering either international travel or
         domestic travel class codes in the ERP instead of relocation expense class
         codes. For example, we reviewed travel vouchers and purchase orders that
         had relocation expenses, and the units had entered the correct class code for
         payments related to only three employees. Because the units were entering
         improper class codes, the Office of the Comptroller could not ensure accurate
         reporting to the IRS.10

The underreporting of income in Boxes 1, 3, and 5 of the W-2 forms is troubling
because it means that the Smithsonian did not report employees’ correct wages to the
IRS and may not have withheld the proper federal tax amounts from employee pay.
Failure to properly account for these transactions reduces management’s ability to
continuously monitor the Smithsonian’s compliance with laws and regulations.

10
  For example, the units were paying two types of costs through the travel manager system: relocation
reimbursements paid to employees and relocation expenses paid directly to vendors. For transactions
paid through the travel manager system, unit personnel entered the following codes: “travel in the
USA” (code 2111), blank (no code entered), “relocation costs” (code 1250), “travel outside the USA”
(code 2112), “transportation” (code 2212), “other professional services” (code 2526), or “relocation
allowance” (code 1284).




                                                  8
Because management could not identify all the relocation and recruitment payments
made during the period, there are likely additional transactions that were not
classified correctly or properly reported to the IRS on the employees’ W-2 forms.

The Smithsonian Did Not Maintain Required Service Agreements for Relocation
and Recruitment Payments

Both federal regulations and Smithsonian policies require that employees who
receive relocation and recruitment payments obtain approval using instruments that
are commonly referred to as service agreements. Service agreements spell out
employees’ responsibility to repay relocation or recruitment amounts if they leave the
Smithsonian prior to a minimum period, such as one year.

We reviewed a sample of 154 employees, including all Smithsonian relocation
reimbursements to employees and direct payments to third-parties during our audit
period, as well as 65 employees who received lump-sum payments in 2004, 2005 and
2006 in amounts that totaled $3,000 or more. Of the 154 employees we sampled who
should have had a service agreement on file, we found the units did not have service
agreements for 34 (or 22 percent). Out of the 34 employees without service
agreements, 20 had neither a service agreement nor an employment letter; 12 had
employment letters (one was unsigned); and 2 had other forms of approval (an e-
mail and a delegated authority request). We note that employment letters are not
authorized as a substitute for service agreements in any approved policies or
procedures made available for our review.

We also observed that the majority of the 34 employees without service agreements
worked at units that maintain their own offices of human resources, namely the
Smithsonian Astrophysical Observatory (SAO) in Cambridge, Massachusetts; SBV;
and the Smithsonian Tropical Research Institute (STRI) in Panama. For example, we
found 8 instances of employees without records of service agreements at STRI. STRI
did not require its employees to have service agreements. Instead, STRI issued
employment letters to its employees. However, these letters did not contain the same
protections that service agreements require, such as establishing a minimum service
term or requiring the employee to repay the relocation or recruitment amounts if the
employee leaves prior to fulfilling the service term. We found many instances where
the documentation, particularly in the earlier years, was incomplete or missing.

Smithsonian procedures require service agreements to be centrally reviewed and filed
in the employees’ official personnel file only if they related to lump-sum payments
made through the NFC system. Therefore, neither OHR nor OC had reviewed or
approved any of the non-lump sum service agreements or employment letters. While
we found instances where units followed up to recover payments from employees
when they left the Smithsonian before fulfilling the terms of their service agreements,
we also identified cases where management failed to recover payments from breached
agreements.



                                          9
For example, SBV hired an executive in 2005 who did not sign a service agreement.
SBV also could not provide a copy of an approved employment letter. Instead, SBV
provided a draft service agreement that would have authorized moving and
temporary living expenses of $99,879 (including grossed-up taxes). The executive
traveled from Boston to Washington for several months, but never relocated. SBV
reimbursed him for temporary living expenses of over $40,000. The executive left
SBV within a year of his start date and was never required to reimburse SBV for any
portion of this amount. SBV did, however, report the $40,000 as income on the
employee’s W-2 Form.

In another example, SBV reimbursed a different executive approximately $105,800
for moving and temporary living expenses, $5,800 more than the $100,000 limit
established in the service agreement. For reasons undocumented, the SBV CEO
waived repayment of the excess $5,800. We noted that the executive was only
required to work at the Smithsonian the prescribed minimum 12 months for this
type of payment, and he left one day after his one year requirement ended. Moreover,
we found no provision authorizing the CEO to waive the excess amount.

We also found other examples where two Office of Protection Services employees
received recruitment payments of $5,000 each. Neither employee fulfilled the
required six-month terms of employment set out in their service agreements, and
neither employee reimbursed the Institution.




                                         10
RECOMMENDATIONS

To ensure that the Institution reports all required information accurately on its
employees’ IRS W-2 forms, to reduce administrative costs, and to ensure that the
Institution recovers payments when service agreements are not fulfilled:

We recommend that the Chief Financial Officer:

   1. Amend existing policies and procedures to clarify the acceptable payment
      methods for relocation and recruitment transactions, specify payment
      limitations, and reemphasize transaction coding instructions. The policies
      and procedures should also address waiver exceptions and prohibit the use of
      employment letters as a substitute for service agreements.

   2. Strengthen user training for recording, processing, and reporting of
      relocation and recruitment payments.

   3. Cease offering moving expense reimbursements to new employees, except in
      limited circumstances where justified, and instead only offer lump-sum
      recruitment payments.

We recommend that the Comptroller:

   4. Report corrected information to the IRS on the appropriate forms for those
      employees that we identified.

We recommend that the Director of OHR or his senior-level designee:

   5. Approve relocation and recruitment service agreements for all Smithsonian
      federal and trust employees in writing and maintain a central file of all such
      agreements.

SUMMARY OF MANAGEMENT RESPONSE

Management’s September 21, 2007, response to our draft report concurred with all
five recommendations. By October 1, 2007, management will cease offering moving
expense reimbursements to new employees and only offer new employees lump-sum
payments, with limited exceptions. In addition, the Office of Human Resources will
approve all relocation and recruitment service agreements in writing and maintain a
central file of all such agreements. By December 31, 2007, management will issue
revised policies and procedures, develop and disseminate training materials, and after
consultation with the General Counsel, report appropriate corrected information to
the IRS.

The full text of management’s response is included as Appendix C.



                                         11
OFFICE OF THE INSPECTOR GENERAL COMMENTS

Management’s planned actions respond to the recommendations, and we consider
the recommendations resolved. We believe managers should make correcting the
deficiencies we identified in this report a priority and ensure that the proposed
milestones are met or exceeded.

We appreciate the courtesy and cooperation of Smithsonian representatives during
this audit.




                                        12
APPENDIX A. SCOPE AND METHODOLOGY

To determine whether the Institution has adequate policies and procedures to govern
the granting of relocation and recruitment payments, we interviewed management
and staff from the Office of the Comptroller; Office of Human Resources; Office of
the General Counsel; Office of the Chief Information Officer (OCIO); Smithsonian
Business Ventures (SBV); Smithsonian Tropical Research Institute; Smithsonian
Astrophysical Observatory; National Museum of Natural History Shipping Office;
and several Institution museums and organizations. We reviewed the Smithsonian’s
policies and procedures for granting, recording, and making relocation and
recruitment payments for federal and trust employees for calendar years 2002 to
2006.

Because the Smithsonian did not have written procedures covering all payment
methods used, particularly for trust employees, we looked to federal regulations to
the extent practicable. We used guidance established by the Federal Travel Regulation
and the Office of Personnel Management as well as federal tax reporting rules from
the IRS, such as Publication 521, “Moving Expenses.”

To determine the total universe of relocation and recruitment payments made to
Smithsonian employees, we reviewed payroll data from the Office of Human
Resources for calendar years 2002 to 2006. We also interviewed the units and queried
the travel management system. We identified 246 employees who received relocation
and recruitment payments. However, given the poor controls at the unit level and
lack of central oversight, we have no assurance that we identified all of the employees
who received these payments. We found many instances where the records,
particularly for the earlier years, were not available.

Of the 246 employees we identified, we examined a sample of 154 employees. We
selected all employees who had been paid by SBV and those that were paid through
travel vouchers and purchase orders. The sample also included 65 employees paid in
lump-sum amounts $3,000 or greater through the NFC system in calendar years
2004, 2005, and 2006. The Smithsonian was unable to readily obtain payroll data
from NFC prior to 2004. We verified whether a signed service agreement was on file
at OHR or the units and followed up to determine if former employees repaid the
Smithsonian when they failed to meet their respective service agreement terms.

When we attempted to determine the amount of payments made using methods
other than lump-sum, we found the Office of the Comptroller did not have a
complete universe. To obtain a more comprehensive listing, OCIO staff produced a
listing of travel vouchers and purchase order transactions based upon information in
the comments fields. We also interviewed unit staff to determine if we had missed
transactions and to obtain supporting documentation.




                                         A-1
To determine whether relocation payments were made in accordance with policies
and procedures, we contacted the individual units and requested that they provide
copies of signed vouchers and purchase orders and supporting documentation for all
employees in their organization who had received relocation and recruitment
payments during the audit period. For each payment, we determined whether the
payment was properly authorized; whether the employee had signed a service
agreement; whether the correct class code had been used; the nature of the expense;
and whether the payment had been made to a third-party vendor or as a
reimbursement to the employee.

To determine whether all associated tax liabilities had been addressed, we verified
whether payments were reported to the Internal Revenue Service by reviewing
payroll information and employee form W-2 and 1099 tax documents from NFC.
(NFC provides automated payroll services to the Smithsonian for both federal and
trust employees.) We also reviewed payments made by SBV through its ADP system
as well as the associated tax reporting documents. We reviewed payments made to
existing employees and found only one 1099 payment to review. We also talked to an
IRS customer service representative for help in understanding tax rules.

We conducted this audit in Arlington, Virginia and Washington, D.C. from February
to September 2007 in accordance with Government Auditing Standards as prescribed
by the Comptroller General of the United States and included tests of internal
controls as we considered necessary.

A summary of the relocation and recruitment payments we identified follows, listed
in descending order according to the total amounts paid by Smithsonian unit during
the period covered by our audit.




                                       A-2
        Smithsonian Institution Relocation and Recruitment Payments
                         Calendar Years 2002 – 2006

                                                  Number of      Total
                       Unit                       Employees    Payments
Smithsonian Astrophysical Observatory                49         $397,780.14
Office of Facilities Engineering and Operations      96          366,898.69
Smithsonian Business Ventures                        20          353,926.65
National Museum of Natural History                   17          134,606.20
National Museum of African American History
and Culture                                           2           100,000.00
Office of External Affairs                            3            75,759.34
Smithsonian Tropical Research Institute               8            68,377.45
National Museum of the American Indian               10            63,119.91
Museum Conservation Institute                         4            57,440.96
National Zoological Park                              9            53,670.03
Office of Investments                                 1            35,000.00
Arthur M. Sackler Gallery/Freer Gallery of Art        2            32,794.86
National Museum of African Art                        1            30,000.50
Smithsonian Institution Press                         3            27,441.63
Hirshhorn Museum and Sculpture Garden                 7            26,213.64
Office of the Chief Information Officer               2            19,999.02
National Postal Museum                                1            17,661.00
Under Secretary for Art                               2            15,568.20
Smithsonian Institution Archives                      1             9,493.00
Archives of American Art                              1             7,242.94
National Museum of American History                   2             6,819.06
Smithsonian Institution Libraries                     2             6,000.00
Cooper-Hewitt National Design Museum                  3             1,908.00
Total                                                246      $ 1,907,721.22




                                       A-3
APPENDIX B. FEDERAL TAX REPORTING

The following diagrams describe the federal tax reporting implications for the
different types of payments noted in our report.

                                       Diagram 1


Payment      Paid By        Paid To       Type of Expense     Payment Would        IRS Reporting
 Type                                                         be Deductible if
                                                                 Made by
                                                                 Employee
   1      Employer       Employee        Lump-sum                  N/A           Form W-2,
                                         payment for                             Wages, Tips, and
                                         recruitment or                          other
                                         relocation                              Compensation,
                                                                                 Boxes 1, 3, and 5.
                                                                                 The employee
                                                                                 must report this
                                                                                 amount on the
                                                                                 Form 1040 as an
                                                                                 addition to wages
   2      Employer       Employee        Reimbursement for          Yes          Form W-2, Box
                                         Reasonable                              12 code “P”.
                                         Moving Expenses                         Informational only
   3      Employer       Employee        Cost of meals              No           Form W-2,
                                         while traveling                         Wages, Tips, and
                                         from the old home                       other
                                         to the new home;                        Compensation,
                                         pre-move house-                         Boxes 1, 3, and 5.
                                         hunting expenses;                       The employee
                                         temporary living                        must report this
                                         expenses after                          amount on the
                                         starting work in                        Form 1040 as an
                                         the new location;                       addition to wages
                                         and qualified real
                                         estate expenses
   4      Employer       Third-Party     Reasonable                 Yes                None
                                         Moving Expenses
   5      Employer       Third-Party     Pre-move house             No           Form W-2,
                                         hunting expenses;                       Wages, Tips, and
                                         temporary living                        other
                                         expenses after                          Compensation,
                                         starting work in                        Boxes 1, 3, and 5.
                                         the new location;                       The employee
                                         and qualified real                      must report this on
                                         estate expenses.                        the Form 1040 as
                                                                                 an addition to
                                                                                 wages

Payments made to individuals prior to their official start date may be reported on an
IRS Form 1099.



                                         B-1
                                     Diagram 2




From the IRS Instructions for the Form W-2:

Moving Expenses – Report moving expenses as follows:
  • Qualified moving expenses that an employer paid to a third-party on behalf
      of the employee (for example to a moving company) and services that an
      employer furnished in kind to an employee are not reported on Form W-2.
  • Qualified moving expense reimbursements paid directly to an employee by an
      employer are reported only in Box 12 of Form W-2 with Code P.
  • Nonqualified moving expense reimbursements are reported in Boxes 1, 3, and
      5 of Form W-2. These amounts are subject to federal income tax withholding
      and Social Security and Medicare taxes.

Code P – Excludable moving expense reimbursements paid directly to employee.
Show the total moving expense reimbursements that you paid directly to your
employee for qualified (deductible) moving expenses.




                                       B-2
APPENDIX C. MANAGEMENT RESPONSE




                         C-1
C-2
APPENDIX D. CONTRIBUTORS TO THE REPORT

The following individuals from the Smithsonian Office of the Inspector General
contributed to this report:

Stuart A. Metzger, Assistant Inspector General for Audits
Brian W. Lowe, Supervisory Auditor
Kimm A. Richards, Senior Analyst




                                         D-1
